audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Naperville, Illinois Police Department
GR-50-00-021
June 5, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Naperville Police Department (PD).  The purpose of the grants is to enhance community policing.  Naperville PD was awarded a total of $2,435,328 to hire 31 entry level sworn police officers and redeploy the equivalent of 5.8 existing full-time officers from administrative duties to community policing.
	
	We reviewed the Naperville PD's compliance with eight essential grant conditions.  We found the grantee's budgeting, officer redeployment, local matching funds, retention efforts, and community policing activities to be acceptable.  However, we noted weaknesses in other areas as identified below.  As a result, we identified $736,196  of dollar related findings.
 
The grantee requested and received $126,103 for the AHEAD and $10,093 for the MORE 96 grants in excess of the maximum amount allowed in their respective Financial Clearance Memoranda.  As a result, we question $136,196 of excess grant funds received by the Naperville PD.

	The Naperville PD was awarded two $600,000 Universal Hiring Program supplemental grants to hire eight officers each; one on December 1, 1997 and the other on September 22, 1999.  At the time of our review, no costs had been charged against either grant.  Naperville PD officials stated local funds would only be available for the local matching and retention requirements of one of the grants.  As a result, we determined that $600,000 will not be expended and should be deobligated.
 
	Several status reports were either inaccurate, untimely, or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.